     U.S. DEPARTMENT OF COMMERCE
               Office of Inspector General




             National Oceanic and
        Atmospheric Administration


        Personnel Inaction and Process
          Breakdowns Delayed NOAA’s
              Release of the Fact Sheet,
                     But Policies Have
                         Been Clarified


                        Final Report No. BSD-18407
                                    November 2008



                     Office of Audit and Evaluation
                     Business and Science Division
Bu

       FOR PUBLIC RELEASE
                                   Report In Brief
                                             U.S. Department of Commerce Office of Inspector General
                                                                 November 2008


Why We Did this Review National Oceanic and Atmospheric Administration
In 2006, several journal
and online articles alleged   Personnel Inaction and Process Breakdowns Delayed NOAA’s
that the Department and
NOAA had delayed release of Release of Fact Sheet, But Policies Have Been Clarified
a research report on cli-     (BSD-18407)
mate change and hurricane
intensity. At the same time,  What We Found
NOAA and NASA scientists
were complaining that their
climate studies were being
suppressed. A September
                              We determined the document NOAA allegedly withheld was not a report
2006 letter from 14 senators  containing new research but a two-page “state of the science” hurricane fact
to the Commerce and NASA      sheet that the agency had decided to issue in response to its own research-
inspectors general expressed ers’ concerns about the 2005 online NOAA Magazine article on hurricane
concerns about possible sup-  intensity and climate change. The fact sheet did not contain new science
pression, and asked if Com-
merce had blocked release
                              but was an overview of various scientific opinions within NOAA. We attrib-
of a hurricane/global warm-   uted the delay in publishing the document to three principal factors:
ing report. In response, we
assessed Commerce policies    1. Changes in senior-level personnel at NOAA overseeing the fact sheet’s
regarding public release of       development and distribution, which resulted in a lack of senior-level
research data, and the events     attention at NOAA.
surrounding the purported
report.                       2. Submission of the document through informal review channels.
Background                             3. Inaction by a senior policy advisor who provided limited assistance to
In November 2005, NOAA                    NOAA in obtaining departmental clearance for the fact sheet despite
published an article in its               being sent at least 6 drafts over a 4-month period.
online NOAA Magazine
contending that according
                                  We also found that at the time NOAA had prepared the fact sheet and initi-
to NOAA research, natural         ated the approval process, it was operating under Commerce and NOAA
occurring cycles in tropi-        communications policies that were out of date, confusing, and burdensome,
cal climate were the cause        and that contained conflicting guidance. These policy deficiencies resulted
of increased Atlantic hur-        in delays in disseminating press releases and scientific research. The De-
ricane activity since 1995,
not the greenhouse effect of
                                  partment updated its communications policy in May 2007. NOAA issued a
global warming. The state-        formal policy for preparing fact sheets that is consistent with the Depart-
ment drew criticism from          ment’s new policy. Both give specific guidance for sharing findings from
some NOAA scientists, who         fundamental research. However, NOAA has not incorporated the fact sheet
believed it failed to reflect the policy into the agency’s directives system or publicized it agencywide.
full spectrum of the agency’s
research on hurricanes and
global warming. In response,
NOAA decided in January           What We Recommended
2006 to prepare a fact sheet
that would present a bal-
anced view of the agency’s        We recommended that
hurricane/climate change           1. procedures developed for preparing fact sheets be incorporated into
research. The fact sheet was           NOAA’s directives system and posted to the NOAA web site, and
approved in May 2006, but
was not released until the         2. state of the science fact sheets that should be approved by the Depart-
following September.                   ment are routed to the Office of the Secretary Executive Secretariat.
View the full report at www.oig.doc.
gov/oig/reports/2008/BSD-18407.pdf.
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington. D.C. 20230




November 26, 2008


MEMORANDUM FOR:               John J. Sullivan
                              Deputy Secretary

                              William J. Brennan, Ph.D.
                              Acting NOAA Administrator
                               -
                              ~g-.~
FROM:                         Judith J. Gordon
                              Assistant Inspector General
                                      for Audit and Evaluation

SUBJECT:                      Final OIG Report No. BSD-18407-9-0001
                              Personnel Inaction and Process Breakdowns
                              Delayed NOAA's Release ofthe Fact Sheet,
                              But Policies Have Been Clarified

This memorandum transmits our final report on our review regarding concerns about past
political interference in the work of NOAA scientists, specifically the concern that political
appointees at Commerce had blocked the 2006 publication of a state of the science fact sheet
linking global warming to increased hurricane intensity. Our review found that (1) senior-level
personnel changes at NOAA, (2) process breakdowns (3) inaction by the Department reviewer
and (4) confusing Department and NOAA Public Affairs policies delayed NOAA's release of the
fact sheet.

During the conduct of this review the Department developed and issued in May 2007, a new
public communications policy Department Administrative Order (DAO) 219-1 that the
Department believes will promote the broad and open dissemination of fundamental research
where its scientists and researchers can freely communicate their findings with the public. We
offer recommendations to NOAA on page 11, and believe that the implementation of our
recommendations will improve the guidance for processing and disseminating state of the
science fact sheets. We are pleased to note that NOAA in its written response to our draft report
concurred with our recommendations and request that NOAA provide us with an action plan
within 60 calendar days describing the actions taken or planned in response to the
recommendations.

We appreciate the cooperation and courtesies extended to us during our review. If you would like
to discuss this report or the requested action plan, please call Ronald Lieberman, Director,
Business and Science Division at (301) 713-2070 or me at (202) 482-2754.

Attachment
,




               cc: Mack Cato, Director, NOAA Office of Audit, Internal Control, and Information
                    Management
.
e
                   Trudy Gallic, DOC Audit Liaison




i




~




I
t

..
~


    ;

t

~




    .
I!#


    $

    ~
    I
    ~




    .~
        ,


        ~
 

U.S. Department of Commerce                                                                Final Report BSD-18407-9-0001 

Office of Inspector General                                                                               November 2008



                                                      CONTENTS
 



Background .................................................................................................................... 1 

Observations and Recommendations............................................................................ 3 

   I.	 Senior-Level Personnel Changes at NOAA, Process Breakdowns, and 

       Inaction by the Department Reviewer Delayed Fact Sheet’s Release 

       by NOAA ............................................................................................................. 3 


  II.	 Confusing Department and NOAA Public Affairs Policies Existed But 

       Policies Have Been Clarified...................................................................................... 13



APPENDIX I—Objectives, Scope, and Methodology.................................................. 17 

APPENDIX II—Analysis of Prior and Current Department and NOAA 

             Communications Guidance ............................................................ 19 


APPENDIX III—FAQ Atlantic hurricanes and climate, dated September 2006 

             (As of May 2006) ............................................................................. 21 


APPENDIX IV—State of the Science: Atlantic Hurricanes & Climate .................... 23 

APPENDIX V—Agency Response ............................................................................... 25 

U.S. Department of Commerce                                                   Final Report BSD-18407-9-0001 

Office of Inspector General                                                                  November 2008



                                           BACKGROUND
 


In November 2005, NOAA published an article in its online NOAA Magazine stating
that some of the agency’s hurricane researchers and forecasters believed hurricane
activity is cyclical. The article contended that according to NOAA research, natural
occurring cycles in tropical climate were the cause of increased Atlantic hurricane
activity since 1995, not the greenhouse effect of global warming. The statement
drew criticism from some NOAA scientists, who believed it failed to reflect the full
spectrum of the agency’s research on hurricanes and the related effects of global
warming. To address the scientists’ concerns, NOAA officials decided in January
2006 to prepare a fact sheet that would present a balanced view of all the agency’s
research and findings in this area. The document was intended to be used as a
reference by officials speaking publicly about the related topic. NOAA approved the
fact sheet in May 2006, but it was not released until the following September, after
questions about NOAA’s failure to release it were raised by the press.

The article and researchers’ reaction occurred at a time when scientists at NOAA
and NASA were alleging the results of their climate-related studies were being
suppressed. At NOAA, several scientists had complained that the agency hampered
their access to the media, failed to issue timely press releases, and did not
disseminate the fact sheet clarifying the agency’s position on hurricane research.
Complaints from these scientists as well as others at NASA prompted media
interest and a GAO review of policies and procedures at NASA, NOAA, and NIST. 1
The complaints also prompted a September 29, 2006, letter from 14 senators to the
Commerce and NASA Inspectors General, detailing concerns about political
interference in the work of scientists. One such concern was that political
appointees at Commerce had blocked the publication of a scientific research report
linking global warming to increased hurricane intensity. As a result of that letter,
we assessed Department and NOAA policies regarding public release of research
data in general, as well as the events surrounding the November 2005 NOAA web
site article and the follow-up fact sheet to determine whether the policies facilitated
or hampered the sharing of scientific information. (Our detailed objectives, scope,
and methodology appear in Appendix I.)

Public Affairs Responsibilities

We used policies issued by Commerce’s Office of Public Affairs as the principal
criteria for our review. The Office of Public Affairs is responsible for overseeing
public affairs activities for the Department and all its bureaus—handling media
inquiries and issuing press releases on Department-wide matters; developing
communications guidance for the bureaus; keeping abreast of newsworthy issues
1
 GAO-07-653, Policies Guiding the Dissemination of Scientific Research from Selected Agencies Should Be
Clarified and Better Communicated, May 2007.

                                                  1                                                  

U.S. Department of Commerce                                                   Final Report BSD-18407-9-0001 

Office of Inspector General                                                                  November 2008



and events involving the bureaus; and handling those that require a Department-
level response.

Within the Department, each bureau has its own public affairs office. At NOAA, the
Office of Communications 2 is headed by a director who coordinates with the
Department on media and publicity activities as they relate to NOAA. Each of
NOAA’s program offices has a public affairs officer who is the publicity liaison for
scientific researchers within that office and who reports to the Office of
Communications director. Researchers typically disseminate their findings in
scientific publications, presentations, press releases, media interviews, and on
NOAA’s web site. Policies from both the Department and the agency specify how
employees should conduct these public communications.

OIG Audit Confirms GAO Findings

GAO’s report on policies governing the dissemination of scientific research at
NASA, NOAA, and NIST, released in May 2007, stated that those policies were in
many cases unclear and contradictory, or overly burdensome and often ignored—
findings that our review confirmed within the Department of Commerce. GAO
recommended that the Secretary of Commerce and the NOAA administrator clarify
and streamline policies, train staff to understand and follow them, and include an
appeals process for disputing dissemination decisions. Prior to the OIG and GAO
reviews, both NOAA and the Department had begun updating their policies to
provide additional clarity and efficiency. The Department has since completed its
update and NOAA has developed related implementation guidance, both of which
incorporate an appeals provision. In addition, both the Department and NOAA have
instituted the recommended training.




2
 The Office of Communications was formerly known as the Office of Public, Constituent, and Intergovernmental
Affairs.




                                                  2                                                   

U.S. Department of Commerce                                                     Final Report BSD-18407-9-0001 

Office of Inspector General                                                                    November 2008



                      OBSERVATIONS AND RECOMMENDATIONS
 


I. 	    Senior-Level Personnel Changes at NOAA, Process Breakdowns, and
        Inaction by the Department Reviewer Delayed NOAA’s Release of the
        Fact Sheet

In 2006, several articles appeared in scientific journals and on web sites 3 alleging
that the Department and NOAA had delayed the release of a science research
report about the relationship between climate change and hurricane intensity,
purportedly to stifle evidence of the impact of global warming. We determined the
document in question was not a report containing new research but a two-page
“state of the science” hurricane fact sheet that NOAA had decided to issue in
response to its own researchers’ concerns about the 2005 online NOAA Magazine
article. The fact sheet did not contain new science but was an overview of various
scientific opinions within NOAA and was intended to give a balanced picture of the
agency’s findings on the relationship between climate change and hurricane
intensity. Agency leadership approved the fact sheet for release in May 2006, but
the document was not disseminated to the general public until September of that
year, after questions about NOAA’s failure to release it were raised by the press.

The delay created the appearance that the fact sheet was deliberately withheld
from the public. We attributed the delay in publishing the document to three
principal factors: (1) changes in senior-level personnel at NOAA overseeing the fact
sheet’s development and distribution, which resulted in a lack of senior level
attention at NOAA, (2) submission of the document through informal review
channels, and (3) inaction by a senior policy advisor who provided limited assistance
to NOAA in obtaining Departmental clearance for the fact sheet despite being sent
at least 6 drafts over a 4 month period.

Background to the delay in releasing the fact sheet

The concept for a fact sheet came from NOAA managers and scientists in January
2006, during a meeting convened by NOAA’s then-Assistant Secretary 4 to address
the concerns raised by the NOAA online article. Those in attendance recommended
that a one- to two-page fact sheet be developed to provide public affairs personnel
and/or NOAA managers with talking points for the upcoming hurricane season. The
group envisioned an easy-to-understand document that would present the diversity
of NOAA’s views on this subject. As agreed at the meeting, the director of the
Geophysical Fluid Dynamics Laboratory (GFDL) took the lead in preparing the

3
  Articles and reports appeared in a variety of venues, such as the journals Nature and Climate Science Watch, 

MSNBC.com, salon.com, and CNN.com.

4
  The Assistant Secretary of Commerce for Oceans and Atmosphere and NOAA Deputy Administrator, retired in
 

March 2006. 



                                                    3                                                    

U.S. Department of Commerce                                                        Final Report BSD-18407-9-0001 

Office of Inspector General                                                                       November 2008



document. He developed a template and distributed it to NOAA officials on March
9, 2006. He asked for their input by March 24. The director incorporated the input
and developed a draft fact sheet, which he forwarded for comment to approximately
14 NOAA scientists on April 6 and again on April 13 for additional comments.

At some point during the fact sheet’s development, NOAA officials, including the
GFDL director and the public affairs deputy director, determined the document
would also be a useful addition to a media kit NOAA was preparing for the
Commerce Deputy Secretary’s annual press conference on the upcoming hurricane
season (scheduled for May 22, 2006). These officials decided to propose its inclusion
in the kit.

On April 28, 2006, the fact sheet was submitted to the NOAA Executive Decision
Process—a formal review mechanism through which a panel of NOAA management
officials considers important or high-profile issues affecting the agency and advises
the Under Secretary of Commerce for Oceans and Atmosphere on how to handle
them. Based on input from the panel, NOAA’s Under Secretary and Deputy Under
Secretary approved the hurricane fact sheet for use as a reference document on May
11, 2006. NOAA’s technical chief of staff5 then transmitted the NOAA approved
document to the Office of the Secretary, Office of Policy and Strategic Planning
(OS/OPSP) for approval to be included in the hurricane season press kit.

Because the fact sheet was not submitted through the Department’s formal review
process, there is no official record of the decision process once the document left the
agency. Despite this, we were able to reconstruct events surrounding the fact sheet’s
review within the Office of the Secretary through interviews and examination of
NOAA and OS documents as follows:

       • May 12, 2006: NOAA’s technical chief of staff sent the fact sheet
        electronically to the senior policy advisor in OS/OPSP for review, noting in her
        e-mail that the document had been approved by Admiral Lautenbacher,
        NOAA’s Under Secretary, that the Commerce public affairs office had been
        briefed about its contents, and that NOAA planned to include it in the press
        kit.

       • May 16, 2006: The senior policy advisor in OS/OPSP notified Commerce’s
        Office of Public Affairs and NOAA that the document had cleared the
        Department’s policy office. A Department public affairs official in turn told the
        senior policy advisor that she would coordinate with NOAA Public Affairs to



5
  The technical chief of staff was the chief of staff to the former NOAA Assistant Secretary. She was involved in the
discussion about preparing the hurricane fact sheet and managed the administrative processing of the document.


                                                     4                                                      

U.S. Department of Commerce                                                     Final Report BSD-18407-9-0001 

Office of Inspector General                                                                    November 2008



       brief the White House’s Council on Environmental Quality (CEQ) 6 about the
       contents of the document while the policy advisor briefed the chief of staff to
       the Secretary of Commerce.

      • May 16 and May 22, 2006: The Secretary’s chief of staff met with Department
       public affairs and OPSP personnel and the chief of staff to NOAA’s Under
       Secretary to discuss the document. The Secretary’s chief of staff asked that
       the fact sheet not be reviewed by the Council on Environmental Quality until
       it had been cleared by the Department. She also stated that NOAA had
       already sent the fact sheet to the CEQ and told her they had done so.
       According to the NOAA technical chief of staff, the fact sheet was forwarded to
       CEQ for informational purposes as was standard practice for documents
       relating to climate-related issues.

The Secretary’s chief of staff told us she ultimately did not clear the fact sheet for
inclusion in the press kit for several reasons:

    1. The fact sheet contained a disclaimer stating that the content did not express
       the views of NOAA, the Department, or the U.S. government. In the chief of
       staff’s view, if the document did not reflect the opinion of the U.S.
       government, it should not be used in a press conference regarding the official
       hurricane outlook.

    2. The press conference was to address the hurricane forecast for the upcoming
       season and community preparedness, not the issue of climate change.

    3. The fact sheet was too technical to be “user-friendly” for the general public.

Once the Department decided not to include the fact sheet in the press kit for the
annual press conference on the upcoming hurricane season, it did not immediately
approve the document to be used for other purposes. Instead the document was
subjected to a protracted ad hoc review process. While our findings address the
review process, we did not find a basis to question these reasons for not including
the fact sheet in the press kit.




6
  The Council on Environmental Quality coordinates federal environmental efforts and works closely with agencies
and other White House offices in the development of environmental policies and initiatives. (Source:
http://www.whitehouse.gov/ceq/aboutceq.html)



                                                   5                                                    

U.S. Department of Commerce                                                       Final Report BSD-18407-9-0001 

Office of Inspector General                                                                      November 2008



Changes in senior-level personnel at NOAA overseeing the fact sheet’s
development and distribution resulted in a lack of senior level attention at
NOAA

We found that there was no designated senior person within NOAA committed to
the release of the fact sheet. As a result, no one elevated the issue to the NOAA
Under Secretary about the difficulties surrounding its approval, so that he might
take action to obtain its release. In January 2006, the then NOAA Assistant
Secretary made the decision to develop the document in response to scientists’
reaction to the online NOAA Magazine article. This official was essentially the fact
sheet “champion,” committed to clarifying any misconceptions the article may have
conveyed. However, he retired in late March 2006—while the document was still
being drafted—and no top official was designated as the point person after his
departure to ensure the fact sheet was issued.

To expedite Departmental clearance, the technical chief of staff to NOAA’s former
Assistant Secretary worked with the senior policy advisor in OS/OPSP to improve
the document’s readability. When clearance was not forthcoming, she elevated the
matter to the chief of staff to the Under Secretary of Commerce for Oceans and
Atmosphere (NOAA chief of staff). NOAA’s chief of staff did interact with the
Department’s senior policy advisor—the individual responsible for coordinating the
Department’s review of the document; however, he did not follow up with the policy
advisor on a consistent basis regarding the status of the fact sheet. In discussing the
events leading to the posting with us, the NOAA chief of staff asserted that NOAA
shared in the blame for the delay, summing up the experience this way: “Our actual
incompetence [in issuing the fact sheet] has led to the perception of wrongdoing.”

NOAA did not submit the fact sheet through the Department’s formal review
process, which kept it off the tracking system and contributed to the 4
month delay going unnoticed

We found that one reason for the delayed decision concerning release of the
hurricane fact sheet was that NOAA did not have guidance or procedures for
developing, approving, and disseminating such a document and thus did not submit
the document through the formal review channels of the Department’s Executive
Secretariat. 7 The events surrounding the vetting and decision-making for the fact
sheet reveal an ad hoc process for a product that was new to the agency with a
purpose that had not yet been fully defined.

Rather than make the document immediately available on the NOAA web site after
the Executive Decision clearance, NOAA staff decided to seek Department clearance
7
  DOO 15-1, Executive Secretariat, effective date August 23, 1995, describes the functions and responsibilities of
the Executive Secretariat staff office headed by a Director who reports directly to the Secretary of Commerce.


                                                     6                                                      

U.S. Department of Commerce                                 Final Report BSD-18407-9-0001 

Office of Inspector General                                                November 2008



as well. Although the Department did not have written guidelines requiring
documents dealing with climate change to be cleared by the Secretary’s office, the
fact sheet was submitted to the Office of the Secretary (OS), Office of Policy and
Strategic Planning (OPSP) for review and approval. The director of the
Department’s Office of Public Affairs advised us that it was normal practice to vet
controversial issues through Commerce top management to keep officials up-to-date
on high-profile matters relating to their area of responsibility. Issues relating to
climate change had become highly controversial and of interest to the media—
receiving coverage in national television news reports, local and national
newspapers, and scientific journals. According to the chief of staff to the Under
Secretary of Commerce for Oceans and Atmosphere, it was understood within
NOAA that climate-related issues needed to be cleared by the Department before
release.

On May 12, 2006, the technical chief of staff sent the fact sheet electronically to a
senior policy advisor in OS/OPSP with whom she worked closely on climate-related
issues rather than through the formal review channels of the Executive Secretariat.
The former Director of OPSP advised that he was not personally involved in
processing the fact sheet and that NOAA specific issues were handled
independently by a senior policy advisor on the OPSP staff. As a result, the OPSP
senior policy advisor coordinated the document with NOAA and the Office of the
Secretary independent of his supervisors, which included the director of the Office
of Policy and Strategic Planning and the Secretary’s chief of staff.

Lacking guidance for processing fact sheets, NOAA did not submit the document to
the Office of the Secretary Executive Secretariat. As the Department’s central
coordinating unit and housed in the immediate Office of the Secretary, the
Executive Secretariat maintains a system to control all incoming written
communications addressed to the Secretary or Deputy Secretary for approval and/or
signature. However, because NOAA did not route the document through the
Executive Secretariat, it was not entered in the system and controlled. Senior
Department and agency personnel were thus not formally notified that the
document was with OS for approval, thereby stalling the fact sheet’s clearance.

A senior policy advisor’s lack of assistance to NOAA in obtaining
Departmental clearance for the fact sheet contributed to the delay

We found that the Department’s inaction in making a decision to either clear the
hurricane fact sheet for posting to the NOAA web site or to deny clearance and
provide comments stalled the release of the document and its posting to NOAA’s
web site.




                                      7                                           

U.S. Department of Commerce                                  Final Report BSD-18407-9-0001 

Office of Inspector General                                                 November 2008



The Secretary’s chief of staff told us that after rendering her decision not to include
the fact sheet in this press kit for the rollout, she was not involved in the review
process again until late September 2006, after the press reports that NOAA had not
released a controversial climate change document—the fact sheet. She said she did
not know why NOAA had failed to release the document since it pertained to
research already completed and contained nothing new. However, we found that
neither she nor the senior policy advisor communicated this view to NOAA officials
at the time of the press conference, and NOAA had not explicitly requested
clearance of the fact sheet for independent release at the time of the press
conference, so the absence of a need to communicate this view was understandable.

The NOAA technical chief of staff’s May 12, 2006, e-mail to the policy advisor did
not indicate that NOAA intended to issue the document to the public independent of
the press materials but this did become one of NOAA’s objectives. As a result, after
the May 22, 2006, press conference, NOAA continued to work with the
Department’s senior policy advisor to obtain clearance for the fact sheet. The NOAA
chief of staff informed us that because the document dealt with a sensitive topic,
NOAA officials continued their efforts to obtain the Department’s clearance for the
fact sheet prior to posting it on the NOAA website even though there was no written
policy that communications dealing with climate change were to be cleared through
the Department before release.

   •	 On June 2, 2006, a policy advisor in the Office of the Under Secretary of
      Commerce for Oceans and Atmosphere e-mailed the Department’s senior
      policy advisor to ascertain the status of the fact sheet, and was informed that
      the document was not cleared.

   •	 On July 21, August 16, and September 12, 2006, the NOAA technical chief of
      staff e-mailed the senior policy advisor and was again informed the document
      had not been cleared.

In addition, from late May through mid-September 2006, NOAA’s technical chief of
staff worked with the senior policy advisor to make changes to at least 6 versions of
the document to facilitate Department approval. At one point during this prolonged
exchange, the NOAA chief of staff remarked to the technical chief of staff that the
Department was not going to move forward on the fact sheet. The senior policy
advisor in the Office of the Secretary told NOAA’s technical chief of staff that the
document addressed a very hot topic and was a “red flag” for the Department, but
he never gave her specific reasons why it was not cleared. According to the technical
chief of staff, she ultimately concluded that the advisor had no real authority in the
decision-making process and that political pressures had rendered the fact sheet
“dead.” Nevertheless, in response to persistent requests by GFDL scientists, she




                                       8                                           

U.S. Department of Commerce                                  Final Report BSD-18407-9-0001 

Office of Inspector General                                                 November 2008



continued to seek clearance from the Department so that NOAA could release the
document.

During our interview with the senior policy advisor, he remarked that although
NOAA continued to press for clearance, he did not feel Department approval was
required. He further stated that he thought NOAA could have released the fact
sheet on its own, but he was not sure whether he communicated this position to
NOAA. However, the technical chief of staff stated that the senior policy advisor
never informed her that NOAA could release the document on its own, which is why
she continued to seek Department clearance.

We found it unlikely that a senior Department official, such as the senior policy
advisor, would give repeated time and attention to a document whose purpose, use,
and importance to the Department were not clear and compelling. Additionally, it is
unlikely that NOAA would continue to seek approval if NOAA officials did not
believe Department approval was necessary and that NOAA management could
release the document on its own. Although other conclusions can be drawn from
these facts, the behavior of the senior policy advisor suggests that he—
understanding that NOAA wanted to post the fact sheet online and sensitive to the
subject matter—intentionally delayed the process, notwithstanding his indication to
us that this was not the case.

Since NOAA’s request to clear the fact sheet was not being tracked by the Executive
Secretariat, the document could have stayed off the “radar screen” of the
Department’s senior leadership indefinitely. However, on September 27, 2006—2
weeks after the technical chief of staff had again contacted the senior policy advisor
to secure the document’s clearance—the science journal Nature published an online
article entitled, “Is US hurricane report being quashed?”, which stated that
Commerce officials had “…blocked a statement on the science behind the politically
sensitive issue of hurricane activity and climate change.” NOAA and Department
officials immediately took action and posted the fact sheet “as is” (including the
disclaimer that it did not reflect the views of NOAA, the Department of Commerce,
or the U.S. Government) on the agency web site within hours of the Nature article’s
appearance. This document was the version that had been approved through the
NOAA Executive Decision Process in May 2006 (see appendix III). A revised version
that reformatted the document to a “state of the science” fact sheet, removed the
disclaimer, and updated the science was again posted on the agency web site in late
October 2006 (see appendix IV).




                                       9                                           

U.S. Department of Commerce                                                        Final Report BSD-18407-9-0001 

Office of Inspector General                                                                       November 2008



Policy guidance issued for scientific fact sheets outlining purpose,
development, and approval should facilitate their timely release.

 In December 2006, NOAA issued Policy and Procedures for Development of State of
the Science Fact Sheets to provide clear guidance on the purpose, uses, approval,
and dissemination of these documents and to avoid the confusion and problems that
delayed the release of the hurricane fact sheet. Under the policy, the NOAA
Research Council 8 is responsible for managing the development and release of these
products. Any NOAA employee or the Research Council may identify topics for a
fact sheet. The council and NOAA “goal lead” 9 decide whether the topic is
appropriate, and assign a lead scientist who forms a team to draft the document.
The council reviews and approves the fact sheet and decides whether to send it
through the NOAA Executive Decision Process. The council also works with NOAA’s
Office of Communications to ensure the content is clear and properly presented, and
the communications office posts the document to the NOAA web site. The policy also
contains a dispute resolution process to allow employees to appeal the council’s
rejection of a proposed fact sheet.

Though the policy was approved in December 2006, it was never incorporated into
the agency’s directives system or posted to the web site, but it was distributed by e-
mail to NOAA’s deputy assistant administrators, assistant administrators, and
deputy and principal office heads. Since then, the NOAA Research Council has
written a more detailed policy outlining the process for preparing state of the
science fact sheets and the NOAA Office of Communications has helped refine the
product so that it will be consistent with the new Department Administrative Order
(DAO) 219-1, Public Communications, issued in May 2007. However, the policy has
not been incorporated into the agency’s directives system either. To ensure that all
employees are aware of the official policy for preparing fact sheets, NOAA must
publicize and disseminate the policy agency-wide to avoid the problems that
hampered release of the hurricane fact sheet. Additionally, if NOAA’s Executive
Decision Process determines that a fact sheet requires Department approval, the
document should be routed to the Department’s Executive Secretariat to ensure
that the review process is transparent and the document does not fall by the
wayside, as the hurricane fact sheet did.




8
  The Research Council is an internal body composed of senior scientific personnel from every line office. The
council provides corporate oversight to ensure that NOAA’s research activities are of the highest quality, meet long-
range societal needs, take advantage of emerging scientific and technological opportunities, and shape a forward-
looking research agenda.
9
  NOAA has established individual mission goals that include ecosystem and climate; weather and water; commerce
and transportation; and mission support. An individual is assigned to be the “goal lead” for each of these areas.


                                                    10                                                      

U.S. Department of Commerce                                 Final Report BSD-18407-9-0001 

Office of Inspector General                                                November 2008



Recommendations

The Under Secretary for Oceans and Atmosphere should ensure that:

   1. Procedures developed by the NOAA Research Council for preparing state of
      the science fact sheets are incorporated into NOAA’s directives system and
      posted to the NOAA web site, and

   2. State of the science fact sheets that should be approved by the Department
      are routed to the Office of the Secretary Executive Secretariat.

Department Response

In its response, the Department stated that the OIG report presents an isolated
incident that could have been avoided if the Department’s public communications
policy had been updated. The response also stated that the Department was in the
process of updating the policy prior to the initiation and issuance of the Hurricane
State of the Science Fact Sheet so that the Department’s scientists and researchers
“…could freely communicate their findings with the public.” The response stated
that since the issuance of the hurricane fact sheet, the new public communication
policy, Department Administrative Order 219-1, was finalized and became effective
May 14, 2007.

NOAA Response

NOAA officials found that the OIG report was a clear and accurate portrayal of the
events surrounding the development and dissemination of the Hurricane State of
the Science Fact Sheet. NOAA officials concurred with both recommendations and
noted the following:

   1. The NOAA Research Council Executive Secretariat will work with the NOAA
      Office of Communications to formalize the Council’s internal guidance
      document into a NOAA policy for inclusion into NOAA’s directives system.

   2. For each new state of the science fact sheet, the NOAA Research Council will
      specifically rule on the need for NOAA Executive Clearance. If the Council
      determines a state of the science fact sheet needs NOAA Executive
      Clearance, the document will be entered as soon as possible into the formal
      NOAA Executive Decision Support system for tracking. If the NOAA
      Executive Panel and/or NOAA Executive Council request the document
      receive Departmental Clearance, the NOAA Research Council will ensure the
      document is routed to the Office of the Secretary’s Executive Secretariat and
      entered into the Departmental tracking system.


                                      11                                          

U.S. Department of Commerce                                  Final Report BSD-18407-9-0001 

Office of Inspector General                                                 November 2008



OIG Comments

NOAA’s planned actions satisfy the intent of our recommendations. NOAA’s actions,
along with the Department’s new public communications policy, should help
facilitate the timely release of state of the science fact sheets and other fundamental
research communications. We request that NOAA provide us with an action plan for
implementing the recommendations within 60 calendar days.




                                       12                                          

U.S. Department of Commerce                                                         Final Report BSD-18407-9-0001 

Office of Inspector General                                                                        November 2008




 II.	 Confusing Department and NOAA Public Affairs Policies Existed But 

      Policies Have Been Clarified 


Department Administrative Order (DAO) 219-1, Public Communications, issued in
May 2007, is the first update of communications policies originally implemented at
Commerce in the early 1980s.10 Prior policies were confusing, burdensome, and
contained conflicting guidance resulting in delays in disseminating press releases
and scientific research. The new policy should clarify communications issues as it
gives specific guidance for handling media contacts, issuing press releases, and
sharing findings from fundamental research.11 It attempts to close the gaps in the
decades-old guidance and subsequent formal and informal guidelines that
concerned how NOAA scientists shared their research with the public via the press.
(See the appendix for a detailed analysis of Department and NOAA communications
guidance.)

Numerous formal and informal policies gave burdensome, unclear, and
contradictory direction.

Under the prior policies (Commerce DAOs, Office of Public Affairs memorandums,
and NOAA policies), the bureaus had to clear all press releases and proposed
contacts with major media through the Department’s Office of Public Affairs—a
process that could take days or weeks and thus undercut the news value of the
information. Several NOAA employees told us that neither the Department nor
NOAA enforced the policies consistently.

In 2004, NOAA supplemented the DAOs with NOAA Administrative Order 219-6,
but this directive contained some contradictory and confusing provisions and was
not widely distributed. It therefore did little to improve public affairs processes or
employees’ understanding of them. For example, one section of the NOAA policy
made the communications office responsible for coordinating and approving media
communications including press releases and interviews. Another section stipulated
that the communications office needed only to be notified about planned media
outreach but did not need to approve the contact. Confusion was compounded by
two memorandums issued by the Department’s Office of Public Affairs in 2005: (1) a
January memo called for Departmental approval for all proposed media interviews
and press releases; (2) July guidance required Public Affairs’ approval for all press

10
   DAO 219-1, Outside Writing and Speaking, April 1982; DAO-219-1 Release of News, Clearance of Speeches and
 

Publications, and Media Coverage, November 1980. 

11
   “Fundamental research communication,” per DAO 219-1, is public communication that deals with science or 

engineering research results ordinarily published and shared broadly within the scientific community. Fundamental
 

research communications must not contain information that is proprietary, classified, or restricted by federal statute, 

and does not address policy, budget, or management matters. 



                                                     13                                                      

U.S. Department of Commerce                                  Final Report BSD-18407-9-0001 

Office of Inspector General                                                 November 2008



releases but only for interviews dealing with “hot” (nationally or politically
sensitive) issues that generated national attention or involved initiatives led by
Commerce senior officials. NOAA staff told us this policy was sometimes changed
informally as well. For example, after Hurricane Katrina in August 2005, as
requests for interviews with NOAA personnel skyrocketed, the Department’s Office
of Public Affairs began requiring NOAA to submit for approval all media requests
for interviews, regardless of the topic, along with a list of potential questions and
answers. NOAA enforced this requirement for all but local media requests.
However, NOAA scientists told us that the time lost as a result of the public affairs
review process cost the agency valuable opportunities to share information with the
nation as the press turned to sources who could respond more rapidly. Researchers
at the Geophysical Fluid Dynamics Lab told us that this preapproval requirement
became so onerous that they began ignoring it by the beginning of 2006. Instead
they would go ahead with an interview and provide a summary of it to NOAA’s
Office of Communications after the fact.

According to NOAA researchers and public affairs officials, the Department’s
requirement that all press releases be submitted to the Office of Public Affairs for
clearance prior to release delayed dissemination of these time-sensitive
communications. NOAA further complicated the process by issuing, in March 2006,
a 13-step process for approving draft press releases. A public affairs officer at GFDL
told us that press releases of research findings are newsworthy for only 24 hours
following a study’s release, and that in a recent case, agency clearance took 6 to 7
weeks. Researchers stated that review process delays have discouraged them from
attempting to publicize their findings. In some instances, researchers have
encouraged their coauthors from other agencies or institutions to issue the press
release so that it would be timely and relevant.

Streamlined guidance should clarify communications issues.

The Department’s revised policy on public communications and NOAA’s guidance
for implementing it should eliminate the obstacles and confusion that have
previously impacted scientists’ efforts to publically communicate the results of their
research. DAO 219-1 explicitly defines fundamental research communications and
gives scientists broad latitude for discussing the findings of such studies with the
media. However, if a communication also contains matters of policy, budget or
management, it is not a fundamental research communication. Written materials
relating to fundamental research must still be approved through existing agency
channels, but the policy does not permit “… approval or non-approval to be based on
the policy, budget, or management implications of the research.” The DAO outlines
employees’ rights of appeal should a request to publicize these materials be denied
or if an author believes that changes to a fundamental research communication
affect its scientific accuracy. The DAO considers all news releases, including those


                                      14                                           

U.S. Department of Commerce                                   Final Report BSD-18407-9-0001 

Office of Inspector General                                                  November 2008



announcing the results of fundamental research, as official communications and
requires that they be submitted to the head of the operating unit and to the
appropriate public affairs office for timely approval. The DAO states, “The role of
the public affairs office is to assist with presentation, style, and logistics of the
communication, not to alter its substance.”

NOAA’s implementation guidance states that researchers do not need agency
approval for media interviews regarding fundamental research and promises a
maximum 4-day turnaround for clearing press releases through its Office of
Communications, when feasible. Given the time sensitivity of ensuring that a press
release is issued concurrently with the research publication, it is critical that
researchers work closely with the Office of Communications to ensure that the
proposed release is provided for review sufficiently in advance of publication. The
implementation guidance also notes that scientists are encouraged but not required
to use the agency’s public affairs expertise when promoting their research or
interacting with the media.

Recommendations

OIG has no recommendations at this time regarding these revised policies and
related training because it is too early to evaluate their effectiveness. Once they
have been in place for a reasonable length of time, we may assess the extent to
which the public communications process has improved.

Department Response

The Department’s response stated that prior to the OIG review, it had been working
to bring the public communications policy into the 21st century. According to the
response, the scientists’ concerns over the delay in publishing the Hurricane State
of the Science Fact Sheet accelerated the Department’s efforts to overhaul outdated
policies, resulting in the issuance of the revised Department Administrative Order
219-1. The response stated that the Department involved affected parties from both
headquarters and field offices, including scientists and researchers, to produce a
new, improved policy that “…is robust, comprehensive, and unprecedented in the
encouragement and protection of fundamental research communications.” The
response noted that the DAO does the following:

   (1) Consolidates contradictory and outdated policies, and brings the policy into
       the modern era of public communications;
   (2) Articulates the differences between public communications, official
       communications, non-official communications in which the Department has a
       legitimate interest, and fundamental research communications;
   (3) Provides a specific “carve-out” for fundamental research communications; and


                                       15                                           

U.S. Department of Commerce                               Final Report BSD-18407-9-0001 

Office of Inspector General                                              November 2008



   (4) Establishes strong dispute resolution mechanisms that provide recourse for
       employees who feel the policy is being implemented improperly.

OIG Comments

The OIG recognizes the Department’s efforts to update public communications
policy and its commitment to ensuring the dissemination of fundamental research
communications.




                                     16                                         

U.S. Department of Commerce                                                        Final Report BSD-18407-9-0001 

Office of Inspector General                                                                       November 2008



                                                                                                    APPENDIX I

                       OBJECTIVES, SCOPE, AND METHODOLOGY

We had three objectives in conducting our evaluation:

     1.	 Identify the policies within Commerce and NOAA that govern the creation, review, and
         dissemination of scientific research, particularly press releases and fact sheets.
     2.	 With regard to the hurricane fact sheet released on NOAA’s web page in September
         2006, determine
             o	 whether the document’s creation, review, and release was consistent with NOAA
                 and/or Department policies;
             o	 why NOAA decided to create the document and what purpose the document was
                 intended to serve;
             o	 who participated in the creation and review of the document and how it evolved
                 from initial draft to the final version posted on NOAA’s web site;
             o	 whether the document was intended to be a public document; and
             o	 if any efforts were made to delay or prevent the document’s release to the public.
     3. 	Assess whether NOAA and the Department chose not to issue press releases in certain
         cases and if those decisions were consistent with policies in place at the time.12

We performed our fieldwork from November 2006 to August 2008 at Commerce headquarters in
Washington, DC; NOAA headquarters in Silver Spring, Maryland; the Geophysical Fluid
Dynamics Laboratory in Plainsboro, New Jersey; and the National Hurricane Center in Miami,
Florida.

We interviewed officials, science researchers, and staff at Department and NOAA headquarters,
the National Hurricane Center, and the GFDL. We reviewed Department and NOAA e-mails and
documents from 2001 to the present relating to media policies and the creation, review, and
release of the hurricane fact sheet; various scientific journal articles; and the following policies
and materials:

     •	 Department of Commerce
           o	 DAO 219-1, Outside Writing and Speaking; Departmental Approval, dated April
              1982 (rescinded May 2007)
           o	 DAO 219-1, Public Communications, dated May 2007
           o	 DAO 219-2, Release of News, Clearance of Speeches and Publications, and
              Media Coverage, dated November 1980 (rescinded May 2007)
           o	 DOC Office of Public Affairs Memorandum, dated January 2005
           o	 DOC Office of Public Affairs Memorandum, dated July 2005


12
  At the start of our review, we planned to sample the press release process; however, as our review progressed we
determined that policy regarding issuing press releases was outdated and was not being followed. As a result, we did
not conduct any sampling. As this objective related directly to policy, it has been combined with the first objective
and is addressed in the report’s second observation.


                                                    17                                                      

U.S. Department of Commerce                                        Final Report BSD-18407-9-0001 

Office of Inspector General                                                       November 2008



   •	 NOAA
        o	 NOAA Administrative Order 219-6, NOAA Media Policy, dated June 2004
           (rescinded May 2007)
        o	 Policy and Procedures for Development of State of the Science Fact Sheets, dated
           December 2006
        o	 Guidance for NOAA Employees Regarding Implementation and Interpretation of
           DAO 219-1, dated July 2007
        o	 NOAA Hurricane FAQ Sheet, issued September 2006
        o	 NOAA online article, NOAA Attributes Recent Increase in Hurricane Activity to
           Naturally Occurring Multi-decadal Climate Variability, dated November 2005

We conducted this review in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency, dated January 2005, and under the authority of
the Inspector General Act of 1978, as amended, and Department Organizational Order 10-13,
dated August 31, 2006.




                                          18                                             

U.S. Department of Commerce                                                   Final Report BSD-18407-9-0001 

Office of Inspector General                                                                  November 2008



                                                                                             APPENDIX II

   ANALYSIS OF PRIOR AND CURRENT DEPARTMENT AND NOAA
                COMMUNICATIONS GUIDANCE

      Communication                      Media Interviews                           Press Releases
DAO-219-1, Outside Writing and    Commerce Office of Public Affairs       Agencies submit all news releases to
Speaking; Departmental Approval   (OPA) clears proposed contacts          Department OPA for clearance,
Dated 1982 (Rescinded 5/2007      with major media.                       comments, and recommendations.
DAO-219-2, Release of News,
Clearance of Speeches and
Publications, and Media
Coverage
Dated 1980 (Rescinded 5/2007)
DOC Office of Public Affairs      OPA clears all media contacts.          OPA clears all materials going to the
Memo dated 1/05                   Notification through bureau public      press.
(Superseded by DAO 219-1,         affairs offices needed. Summary
Dated 5/2007)                     describing all interviews required
                                  daily.
DOC Office of Public Affairs      Agencies direct all media inquiries     OPA clears all materials going to the
Memo dated 7/2005                 on hot issues of national interest to   press.
                                  OPA.
                                  OPA approval of local media
                                  requests is not necessary.
                                  Summary of all interviews and
                                  contacts required to be sent to
                                  bureau public affairs office
                                  regularly.
NAO 219-6, Administrative         Employees “notify” servicing            Conflicting guidance:
Management and Executive          public affairs office before            One section states that NOAA
Secretariat                       responding to media contacts            Office of Communications * is
Dated 2004                        regarding items of national news        responsible for announcing official
(Rescinded 5/2007)                interest, regulatory actions,           scientific and technical papers;
                                  controversial issues, release of        another section states that the office
                                  scientific papers with policy           must only be notified about a
                                  implications.                           paper’s release.
                                  Employees “refer” requests from
                                  news media for conferences,
                                  interviews regarding NOAA
                                  programs or activities, or official
                                  and non-official scientific papers.
NOAA Informal Practices           Prior to Hurricane Katrina (9/2005),    Line office public affairs office
                                  Commerce OPA did not enforce            reviews all news releases and clears
                                  existing policy and was not heavily     controversial releases through
                                  involved in approving contacts.         NOAA’s 13-step review process.
                                  Post Katrina, NOAA sent all
                                  interview requests to OPA for
                                  approval using a Clearance
                                  Interview Form with anticipated
                                  questions and answers.
                                  NOAA communications office
                                  chose not to clear local, non-



                                               19                                                       

U.S. Department of Commerce                                                      Final Report BSD-18407-9-0001 

Office of Inspector General                                                                     November 2008


                                     controversial contacts with OPA.
                                     Beginning in 2006, researchers
                                     conducted interviews, then provided
                                     summary to NOAA
                                     communications office.
 DAO 219-1, Public                   Identifies fundamental research         All news releases and similar
 Communications                      communication (FRC) as one that         documents are official documents.
 Dated 5/2007                        promotes free flow of scientific and    News releases must be submitted to
                                     technical information. Head of          the head of the operating unit or
                                     operating unit notifies unit’s public   designee and to the appropriate
                                     affairs office of pending FRC, if       Public Affairs office for approval in
                                     necessary.                              a timely manner.
                                     Includes appeals provision giving
                                     employees the right to appeal
                                     rejection of a proposed
                                     communication or changes that
                                     affect the communication’s
                                     scientific accuracy.
 NOAA Implementation                 Researchers may participate in          News releases submitted for review
 Guidance for DAO 219-1              media interviews regarding FRC          will undergo an approval process not
 Dated 7/2007                        without prior approval and without      to exceed four business days when
                                     submitting anticipated Q and As.        practicable (a goal of two business
                                     Appeal rights outlined.                 days at the respective line office and
                                                                             two business days at NOAA
                                                                             headquarters.)




*The Office of Communications was formerly known as the Office of Public, Constituent, and Intergovernmental
Affairs.




                                                  20                                                       

U.S. Department of Commerce                                                                                                     Final Report BSD-18407-9-0001 

Office of Inspector General                                                                                                                    November 2008



                                                                                                                                                 APPENDIX III 


     FAQ.
     Atlantic hurricanes & climate
           The purpose ofthis document is to respond to frequently asked               Figure 1: Number of Hurricanes and Major Hurricanes
     questions on the topic ofAtlantic hurricanes and climate. This                    (cat. 3-5); Atlantic Basin (1945-2005)
     document reflects the current state ofthe science) which is based on
     official data sets and results presented in peer-reviewedpublications.
     It does not contain any statements ofpolicy orpositions ofNOAA)
     the Department ofCommerce or the             us.
                                                   Government.


     Has hurricane activity changed in the 20 th century?
       Atlantic hurricane seasons since 1995 have been significantly
       more active. There are more hurricanes, and hurricanes are
       more intense than the previous two decades. (figure 1)

       Earlier periods, such as from 1945 to 1970 (and perhaps
        earlier), were as active as the most recent decade.

       More hurricanes have made U.S. landfall in the past decade,
       but periods of even higher landfalls occurred early in the
                                                                                                 1945 1950 1955 1960 1965 1970 1975 1980 1985 1900 1995 20CKl 2005
       century. (figure 2)                                                                                                          Y'~

                                                                                             It should be noted that anomalous sea surface temperatures in
     What are major issues associated with this increased
                                                                                              the tropical Atlantic were significantly warmer than the global
     hurricane frequency and intensity?
       Strong natural decadal variations, as well as changes in data
                                                                                              average from about 1930 to 1970 and after 2000. This
                                                                                              warming is attributed to the Atlantic Multi-decadal Oscilla­
       quality, density, sources, and methodologies for estimating
                                                                                              tion, a slow cycle of natural fluctuation in atmospheric
       hurricane strengths, lie at the heart of arguments whether or
       not a global warming contribution to a trend in hurricane                              conditions and water temperatures.
       intensities can be detected.                                                    What factors influence hurricanes?
                      th                                                                      Hurricanes respond to a variety offactors besides local ocean
       Over the 20 century, global ocean temperatures and sea
                                                                                              temperatures. In particular, the vertical wind structure is of
       surface temperatures where hurricanes typically develop in the
                                                                                              crucial importance; favorable wind conditions in conjunction
       tropical Atlantic and Gulf of Mexico have warmed at similar
                                                                                              with warmer ocean temperatures contribute to active periods.
       rates, indicating a role for global warming in these regions.
       (figure 3) Ocean temperatures have risen about one degree                              The Atlantic Multi-decadal Oscillation and the El Nifio/La
        Fahrenheit (half a degree Celsius) in tropical water.                                 Nina cycle are important factors in determining the environ-
                                                                                                                                                        (over, please)
     Figure 2: Landfalling Hurricanes and Major Hurricanes                             Figure 3: June - November Average Sea Surface Temperature
     (cat. 3-5) in United States                                                       Anomalies
                                                                                               1.0r---~---~--~--~---~--,

                                                                                               0.8      _Atlantic Main Devebpment Region'
                                                                                                        -    Global Oceans

                                                                                        (fJ    0.6
                                                                                        ~

                                                                                       ~ 0.4
                                                                                       S!.
                                                                                        00
                                                                                       .~

                                                                                       "E
                                                                                        o
                                                                                        c
                                                                                       «
                                                                                       f-
                                                                                              0.2
                                                                                       if!
                                                                                       if!    0.4

                                                                                              0.6

                                                                                              0.8
                                                                                                     *8.5N-21.5N,2fNi1-85W
               1910   1920   1930   1940   1950    1960   1970   1980   1900   20CKl          1.0
                                             Y'~
                                                                                                 1900          1920          1940         1960   1980        2000




                                                                               21                                                                                 

U.S. Department of Commerce                                                                                   Final Report BSD-18407-9-0001 

Office of Inspector General                                                                                                  November 2008




     (continuedfrom previouspage)                                                NOAA Resources for Additional Information
       mental conditions for seasonal to multi-decadal extremes in                NOAA National Weather Service
       hurricane activity.                                                         .:. National Centers for Environmental Prediction
       Models simulate approximately a one- half category increase                   Climate Prediction Center: intraseasonal to multi-season
       (approximately six percent increase in wind speed, and                           climate forecasts; seasonal hurricane forecasts; diagnos­
       approximately 15 percent decrease in central pressure) on the                    tic studies of major climate anomalies; real time
       Saffir-Simpson scale of strong hurricanes late in the 21 st
                                                                                        monitoring of climate.
       century, if tropical sea surface temperatures are about 1. 75
                                                                                        http://www.cpc.noaa.gov
       degrees Celsius warmer than at present. The models also show
       an approximately 20 percent increase in near-storm rainfall                    Tropical Prediction Center / National Hurricane Center:
       rate under those conditions.                                                     issues operational hurricane forecasts; maintain and
                                                                                        update the official Atlantic and northeast Pacific
     How long will the current active period last?                                      hurricane databases from which observational climate
       Scientists disagree as to whether currently a sound basis exists
                                                                                        studies are conducted.
       for making projections on how long the current active period
                                                                                        http://www. nhc. noaa.gOY
       will last. The viewpoints in the scientific community include:
                                                                                  NOAA Satellite and Information Service
       .:. Limited understanding of natural decadal variability, com-
           bined with its irregular temporal behavior, preclude definitive           National Climatic Data Center: official archive for climate
           statements about how long the active period will last.                      data sets; development of global tropical cyclone data­
                                                                                        bases, analysis of historical freq uency and strength of
       .:. Natural decadal variability suggests high levels ofhurricane
                                                                                        Atlantic Basin hurricanes, analyses ofclimate trends,
             activity and u.s. landfalls for the next decade and beyond since
                                                                                        monitoring and historical perspective on current seasons.
             the previous active period (1945-1970) lasted atleast 25 years.
                                                                                        http://www.nuk.noaa.gov
       .:. Global warming suggests more intense hurricanes (e.g.) as
                                                                                     National Coastal Data Development Center: distributes data
           increasing sea surface temperatures provide energy for
                                                                                        and information associated with natural and man-made
           storm intensification), but there is less evidence that global
                                                                                        events that impact coastal areas.
           warming will cause the current active period to persist.
                                                                                        http://www.ncddi:.noaa.gov
       Programs of improvements to data sets, diagnostic studies for
                                                                                  NOAA Office of Oceanic and Atmospheric Research
       improved understanding, and systematic numerical experi­
       mentation studies will help to reveal the underlying causes for               Atlantic Oceanographic and Meteorological Laboratory /
       the recent active period and to predict how long the period of                   Hurricane Research Division / Physical Oceanography
       increased activity will last. NOAA is actively engaged in each                   Division: physical understanding of hurricane dynamics
       of these activities.                                                             through use of research aircraft and field studies;
                                                                                        improvements to hurricane track and intensity fore­
     What key research is NOAA working on?                                              casts; monitoring of Atlantic ocean circulations; studies
       Understanding the dynamics of the Atlantic Multi-decadal
                                                                                        of Atlantic climate.
       Oscillation, its links to the larger-scale tropical climate
                                                                                        http://www.aoml.noaa.gov
       variability, and developing an ocean monitoring and decadal
       prediction capability.                                                        Geophysical Fluid Dynamics Laboratory: studies of climate
                                                                                        variability and change; development and use of the
       Improving the quality and scope of hurricane relevant data sets.
                                                                                        required climate models; development of models used
       Numerically simulating and developing a predictive under­                        for operational hurricane forecasts by NOAA and the
       standing ofseasonal to decadal hurricane variability.                            Navy; numerical studies of climate impacts on hurri­
                                                                                        canes and their decadal variability.
       Understanding whether or not and to what degree human induced
                                                                                        http://www.gfdl.noaa.gov
       changes to the environment are having an influence on hurricanes.
                                                                                     Earth System Research Laboratory: diagnostic studies of
       Making improvements to short range hurricane track and
                                                                                        climate variability and changes; impacts of climate on
       intensity forecasts and development of additional observing
                                                                                        extreme events.
       capabilities for hurricanes.
                                                                                        http://www.esrl.noaa.gov
                                                                                     Climate Program Office: intramural and extramural
                          NOAA is dedicated to enhancing economic security              support for development of a predictive understanding


         •
                 0':Di<T~OSPft$"8
        ".     I •• o<s. and national safety through the prediction and                 of the climate system, the required observational
       ;~.t, research of weather and climate-related events and                         capabilities, delivery of climate services.
       ~                § providing environmental stewardship of the                    http://www.climate. noaa.gov
        c::.",       rp'" nation's coastal and marine resources.
         O{>,b                 ,.}0    ..
             'i!1T>,fmo\,vOv          VISit us on the web at www.noaa.gov                                          September 2006 (As of May 2006)




                                                                            22                                                                     

U.S. Department of Commerce                                                                                                           Final Report BSD-18407-9-0001 

Office of Inspector General                                                                                                                          November 2008



                                                                                                                                                      APPENDIX IV
 





     State of the Science:
     Atlantic Hurricanes & Climate
           This document represents the state ofthe science as developed                      Figure 1; Nunlber of Hurricanes and Major Hurricanes
     by numerous NOAA researr:hers. NOMs tropua! cyclone activities                           (cat. 3-5); Atlantic Basin (1945-2005)
     include targeted research on hurricane development~ intensity, and                          16 "-"--'~-'~'-~'-"~-'~'-~'-"~-'-~-'~Tl
     track; surface) ocean) and in situ observations; reconnaissance
                                                                                                 14
                                                                                                                                                         AllH . "","s       I
     aircraft missions; numerical modeling; climate and hurricanes)                                                                                      Major Hurric<ne5

     operational flrecasts; outreach and timely dissemination ofinfOrma­
                                                                                                 12
     tion; and impact assessments. As new scientific inftrmation becomes
     available, this document will be updated

     Basic Factors that Influence Hurricanes
        • A pre-existing weather disturbance
        • Warm ocean water temperatures in the tropical Atlantic
           Ocean and Caribbean
        • Moisture in the atmosphere
        • Favorable wind conditions, such as light winds aloft or
           weak wind shear
                                                                                                       1945 1950 1955 1960 1965 1970 1975 1980 1985 1990 1995 2CXlO 2005
     Examples of Natural Climate Variability and Hurricane                                                                                Y'~

     Activity                                                                                              activity from the 19405 to the late 19605, fewer than
        • El NinolSouthern Oscillation (ENSO) can impact hurri­                                            average major hurricanes for about the next 25 years, and
           cane formation in the Atlantic Basin. All other factors                                         now an increased number since 1995.
           being equal, we have learned that El Nino conditions tend
                                                                                              Human-Induced Climate Change and HurricaneActivity
           to suppress hurricane development while La Niiia condi­
                                                                                                     • The potential impact of anthropogenic warming on hurri­
           tions tend to favor development.
                                                                                                           canes is a relatively new research area for NOAA scientists.
        • The Atlantic Multi-decadal Oscillation (AMO) is an
                                                                                                     • There are recent studies that suggest the warming of the
           ongoing series of long-duration changes in the sea surtace
                                                                                                       oceans in the Atlantic main development region in the 20 th
           temperature (SST) of the North Atlantic Ocean with cool
                                                                                                       century is due to the increase in greenhouse gases, and in
           and warm phases that may last for 20 to 40 yeaIS at a time.
                                                                                                       turn these warmer waters provide more fuel to the devel­
           As our understanding of the AMO continues to improve,
                                                                                                       opment and intensification ofhurricanes.
           we have learned during the warm phases the AMO, the
           numbers of tropical storms that mature into severe                                        • Another study found that models simulate approximately a
           hurricanes is much greater than during cool phases. As a                                    one-half category increase on the Saffir Simpson scale of
           result, we have observed increased Atlantic hurricane                                                                                             (over, please)
     Figure 2: Landfalling Hurricanes and Major Hurricanes                                    Figure 3: June - November Average Sea Surface Temperature
     (cat. 3-5) in United States                                                              Anomalies
                                                                                                      1.0r---~---~--~---~--_--,

                                                                                                                _Atlantic Main Devebpmenl Region'
                                      l:indfoll.inghurri
                                      M>jCl"laodhllinghuIr>o"">
                                                                  I                                   0.8
                                                                                                                -   Global Oceans
                                                                                                      0.6
                                                                                               00
                                                                                               ~
                                                                                              ·00
                                                                                              <D      0.4
                                                                                              S!.
                                                                                               (fJ    0.2
                                                                                              .~

                                                                                              "E
                                                                                               o
                                                                                               c
                                                                                                      0.0
                                                                                              «
                                                                                              f-
                                                                                                     0.2
                                                                                              (J)
                                                                                              (J)    0.4

                                                                                                     0.6

                                                                                                     0.8

       °1900   1910   1920   1930   1940   1950       1960        1970   1980   1990   2000
                                               Y'~


                                                                                                                                                       VERSION 14




                                                                                       23                                                                                       

U.S. Department of Commerce                                                                                                    Final Report BSD-18407-9-0001 

Office of Inspector General                                                                                                                   November 2008




     (continuedfrom previous page)                                                           NOAA Resources for Additional Information
                 strong hurricanes in the late 21S! century, ifSSTs are about                  • NOAA National Weather Service
                 1. 75 degrees Celsius warmer than the present. The models                     .:. National Centers for Environmental Prediction
                 also show an approximately 20 percent increase in near­                       Climate Prediction Center: intraseasonal to multi-season
                 storm rainfall rate under those conditions.                                      climate forecasts; seasonal hurricane forecasts; diagnostic
     Atlantic hurricane activity during the 20 th Century                                         studies of major climate anomalies; real time monitoring
                 Atlantic hurricane seasons since 1995 have been signifi­                         of climate.
                 cantly more active, e.g. more hurricanes and more intense                        http://wwwcpe.noaa.gov
                 hurricanes, than the previous two decades. (figure 1)
                                                                                               Tropical Prediction Center / National Hurricane Center: issues
                 Earlier periods, such as from 1945 to 1970 (and perhaps                         operational hurricane forecasts; maintain and update the
                 earlier), were apparently as active as the most recent decade.                  official Atlantic and northeast Pacific hurricane databases
                 The past decade has seen increased U.S. landfalls, however periods              from which observational climate studies are conducted.
                  ofeven higher landfalls occurred early in the century (figurr 2)               http://wwwnhe.noaa.gov
                 OUf science is not mature enough to determine what                              NOAA Satellite and Information Service
                 percentage of anthropogenic climate change and what                           National Climatic Data Center: official archive for climate data
                 percentage of natural climate variability is driving our                         sets; development of global tropical cyclone databases,
                 current hurricanes.                                                              analysis of historical freq uency and strength of Atlantic
     How long will the current active period last?                                                Basin hurricanes, analyses of climate trends, monitoring and
                 Scientists disagree as to whether currently a sound basis                        historical perspective on current seasons.
                  exists for making projections on how long the current                           http://wwwnecknoaa.gov
                  active period will last. The viewpoints in the scientific                    National Coastal Data Development Center: distributes data
                  community include:                                                             and information associated with natural and man-made
                          Limited understanding ofnatural decadal variability, com­              events that impact coastal areas.
                           bined with its irregular temporal behavior, preclude definitive       http://www.ncdck.noaa.gov
                           statements about how long the active petiod will last.                NOAA Office of Oceanic and Atmospheric Research
                          Natural decadal variability suggests high levels ofhurri­            Atlantic Oceanographic and Meteorological Laboratory /
                          cane activity and u.s. landfalls for the next decade and                Hurricane Research Division / Physical Oceanography
                          beyond since the previous active period (1945-1970)                     Division: physical understanding of hurricane dynamics
                          lasted at least 25 years.                                               through use of research aircraft and field studies; improve­
                          Warming suggests more intense hurricanes (e.g., as increas­             ments to hurricane track and intensity forecasts; monitor­
                          ing surface temperatures provide energy for stonn intensifi­            ing of Atlantic ocean circulations; studies of Atlantic
                          cation), and some non-NOM scientists suggest global                     climate.
              warming "Will cause the current active period to persist.                           http://www.aoml.noaa.gov
     Key Research in NOAA                                                                      Geophysical Fluid Dynamics Laboratory: studies of climate
                 Understanding the dynamics of the AMO, its links to the                         variability and change; development and use of the
                 larger-scale tropical climate variability, and developing an                    required climate models; development of models used for
                 ocean monitoring and decadal prediction capability                              operational hurricane forecasts by NOAA and the Navy;
                 Improving the quality and scope of hurricane relevant data sets                 numerical studies of climate impacts on hurricanes and
                                                                                                  their decadal variability.
                 Numerically simulating and ultimately understanding
                                                                                                  http://wwwgfdl.noaa.gov
                 seasonal to decadal hurricane variability
                                                                                               Earth System Research Laboratory: diagnostic studies of climate
                 Understanding whether or not and to what degree anthro­
                                                                                                 variability and changes; impacts of climate on extreme
                 pogenic forcing is having an influence on hurricanes
                                                                                                 events.
                 Making improvements to short range hurricane track and                          http://www.esrl.noaa.gov
                 intensity forecasts through improved models and develop­
                                                                                               Climate Program Office: intramural and extramural support
                 ment of additional capabilities for hurricanes
                                                                                                  for development of a predictive understanding of the
                                                                                                  climate system, the required observational capabilities,
                                                                                                  delivery of climate services.
                                                                                                  http://www.climate.noaa.gov
                                        NOAA is dedicated to enhancing economic security


                 •
                  0':Di<T~OSPf($%
        jI.' I •• 0<% and national safety through the prediction and
       ;~.t, research of weather and climate-related events and
       ~             J providing environmental stewardship of the
        c::.",                      ~   nation's coastal and marine resources.
             o$P'ifll},fnrfOC cp<>+0    Visit us on the web at www.noaa.gov                                                                    October 2006

                                                                                                                                             VERSION 14




                                                                                   24                                                                        

U.S. Department of Commerce                                                              Final Report BSD-18407-9-0001 

Office of Inspector General                                                                             November 2008



                                                                                                        APPENDIX V 


                                                                UNITED STATES DEPARTMENT OF COMMERCE
                                                                Office of the General Counsel
                                                                Washington, D,C. 20230




         MEMORANDUM FOR                 Todd J. Zinser
                                        Inspector General

                                        Judith J. Gordon
                                        Assistant Inspector General for Audit and Evaluation

         FROM:                          David K. BowsherY~
                                        Deputy General Counsel

         SUBJECT:                       Personnel Inaction and Process Breakdowns Delayed NOAA's
                                        Release of the Fact Sheet, But Policies Have Been Clarified, Draft
                                        Audit Report No. BSD-18407-8-0001

         Thank you for the opportunity to review and comment on the draft audit report "Personnel
         Inaction and Process Breakdowns Delayed NOAA's Release of the Fact Sheet, But Policies
         Have Been Clarified (BSD-18407-8-0001)" and for all of the courtesies extended during this
         process. This memorandum constitutes the Department's response, and NOAA's response is
         attached.

         General Comments

         It is the Department's view that scientific progress relies on the broad and open dissemination of
         research results and that an open exchange of scientific ideas, information, and research achieves
         the Department's vision for an informed society that uses objective and factual information to
         make the best decisions. We are committed to creating an environment in which this vision can
         be achieved, and we believe the isolated incident outlined in this report could have been avoided
         with the Department's updated public communications policy.

         For some time prior to the actions that led to the initiation of this audit two years ago, the
         Department had been working to bring our public communications policy into the 21st century
         and to ensure that our world-class scientists and researchers could freely communicate their
         findings with the public. The concerns scientists raised over the delay in publishing the
         hurricane fact sheet served to accelerate our efforts, bringing into sharp focus the need to
         overhaul the Department's severely outdated policies.

         The development of the new public communications policy included unprecedented involvement
         from affected parties, including three separate rounds of input from internal Department
         constituencies, particularly scientists and researchers, and those in field offices. More than 60
         people at NOAA, including at least 30 scientists, partiCipated in the review process, and the input
         received resulted in significant improvements to the policy. Not only do we believe that the new
         policy sets the "gold standard" for public communications policies, but the Director of the Office




                                                      25                                                       

U.S. Department of Commerce                                                                      Final Report BSD-18407-9-0001 

Office of Inspector General                                                                                     November 2008




          of Science and Technology Policy in the Executive Office of the President cited the
                                                                                                 l
          Department's policy as an example for other agencies developing of their own policies.

         The new public communication policy, Department A9ministrative Order 219-1, has been in
         effect since May 14,2007, It is a sweeping policy that:

         •   Consolidates contradictory and outdated policies, and brings the policy into the modern era
             of public communications;
         •   Articulates the differences between public communications, official communications, non­
             official communications in which the Department has a legitimate interest, and fundamental
             research communications;
         •   Provides a specific "carve-out" for fundamental research communications; and
         •   Establishes strong dispute resolution mechanisms that provide recourse for employees who
             feel the policy is being implemented improperly.

         It is our view that the circumstances detailed in this report would have been unlikely to occur had
         we been operating under the new policy. 'DIe Department agrees that vigilance in implementing
         the policy is critical to its success, and we are committed to doing so.

         We believe that the policy is robust, comprehensive, and unprecedented in the encouragement
         and protection of fundamental research communications. We intend to continue working to
         make the policy the best it can be for the Department, its employees, and the American people.



         Attaclunent




        I M:morandum ~om John H. Marburger, III, Director of the Office of Science and Technology Policy, to all
        Cabmet Secretanes and other heads of agencies involved in scientific research (May 28, 2008).


                                                               2




                                                           26                                                          

U.S. Department of Commerce                                                               Final Report BSD-18407-9-0001 

Office of Inspector General                                                                              November 2008




                                       Department of Commerce
                           National Oceanic and Atmospheric Administration
                             Comments on the Draft OIG Report Entitled
                             "Personnel Inaction and Process Breakdowns
                Delayed NOAA's Release of the Fact Sheet, But Policies Have Been Clarified"
                                 (BSD-18407-8-000l/September 2008)

         General Comments

         Overall, we found the above-referenced OIG report to be a clear and accurate finding of the .
         events surrounding the development and evenrual dissemination of the Hurricane State of the
         Science Fact Sheet.

         Recommended Changes for Factualffechnical Information

         Page 9. Recommendation 2. "Fact Sheets that should be approved by the Department are routed
         10Ihe Office ojthe Secretary Executive Secretariat."

         For consistency, we suggest the recommendation be changed to read, "State of the science fact
         sheets that should be approved by the Department are routed to the Office of the Secretary
         Executive Secretariat."

         Editorial Comments

         Page 5, last paragraph, last line: missing period.

         NOAA Response to OIG Recommendations

         Recommendation 1: "The Under Secretary for Oceans and Atmosphere should ensure that
         procedures developed by the NOAA Research Council for preparing state of the science fact
         sheets are incorporated into NOAA's directives system and posted to the NOAA website."

         NOAA Response: We concur. The NOAA Research Council Executive Secretariat will work
         with the NOAA Office of Communications to fonnalize the C01.ll1cil's internal guidance
         document into a NOAA policy for inclusion into NOAA's directives system.

         Recommendation 2: "The Under Secretary for Oceans and Atmosphere should ensure that state
         ojthe science fact sheets that should be approved by the Department are routed to the Office of
         the Secretary Executive Secretariat."

         NOAA Response: We concur. For each new state of the science fact sheet, the NOAA
         Research Council will specifically rule on the need for NOAA Executive Clearance. If the
         Council determines a state of the science fact sheet needs NOAA Executive Clearance, the
         document will be entered as soon as possible into the fonnal NOAA Executive Decision Support
         system for tracking. If the NOAA Executive Panel andlor NOAA Executive Council request the
         document receive Departmental Clearance, the NOAA Research Council will ensure the
         document is routed to the Office of the Secretary's Executive Secretariat and entered into the
         Departmental tracking system.




                                                        27                                                      

